CERTIFICATE OF SERVICE
No. 20HollyFrontier Cheyenne Refining, LLC, HollyFrontier Refining &
Marketing, LLC, HollyFrontier Woods Cross Refining, LLC, & Wynnewood
Refining Co., LLC,
Petitioners,
v.
Renewable Fuels Association, et al.,
Respondents.
I, Ryan C. Morris, do hereby certify that, on this fourth day of September,
2020,1 caused one copy and an electronic copy of the Petition for a Writ of
Certiorari in the foregoing case to be served by first class mail, postage prepaid, and
by email, on the following parties:
Shelby Leigh Dyl
Matthew W. Morrison
Cynthia Cook Robertson
Pillsbury Winthrop Shaw Pittman
1200 Seventeenth Street, N.W.
Washington, D.C. 20036
(202) 663-8000
shelby.dyl@pillsburylaw.com
matthew.morrison@pillsburylaw.com
cynthia.robertson@pillsburylaw.com
Counsel for Renewable Fuels
Association, et al.

Jeff Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
(202) 514-2217
Supreme CtBriefs@usdoj. gov
PATRICK JACOBI
U.S. Environmental Protection Agency
999 18th Street, Suite 370
Denver, CO 80202
(303) 844-1348
Patrick. r.j acobi@usdoj. gov
Counsel for United States
Environmental Protection Agency
Is/ Rvan C. Morris
RYAN C. MORRIS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

